U $ CA U No: ao- iO<&OQ>
IN THE

SUPREME COURT OF THE UNITED STATES

STEVE L. STAN ALAND, JR.,
Petitioner
v.
STATE OF FLORIDA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES DISTRICT COURT-MIDDLE DISTRICT
JACKSONVILLE DIVISION
AMENDED
PETITION FOR WRIT OF CERTIORARI

Steven L. Stanaland, Jr.
D.C. #593240
New River Correctional Institution
P. O. Box 900
Raiford, FI 32083

1

filed
JAN 2 5 2021

APR 1 6.2021

' T

QUESTIONS PRESENTED
This may very well be in this case and across the Nation. the most important and the biggest
question is.
(Specifically)
[If] y°u live in the middle of the Wood's and/or outskirts of a city or a town, in a desolate
place a long waysfrom the
1. (A) Police or sheriff's dept
1. (B) As constitutionalprovisions 2nd Amendment Shouldn ftyou be legally entitled to keep and bear
arms when your not a convicted-felon, to protect yourself and your spouse and family from assault
(bodily harm) with a firearm acting as like a law enforcement on your own property?
2,) When an Indictment states “Murder w/a firearm, ” and says a man is shot with a shotgun, should
a defendant be convicted (in this case) when there's NO FIREARM that's produced in court of
trial?)
3.) Should a defendant be convicted of murder with a firearm (in this case) on circumstantial
evidence case with no gun?
4.) Should an attorney pursue a defense ofself-defense when evidence exist as such, in the situation
as in Stanaland's case.
5. (A) Is it proper to suppress 206 pages of the Defendant's Testimony Evidence that supports selfdefense in a murder case as in Stanaland's case. In an interview with a cold-case Detective Cris
Wensil, when arrested?
5. (B) Specifically, even though he invoked his constitutional right to an attorney early on in this
interview, wouldn't this exculpatory evidence, and direct evidence, explaining what really happened,
should have been brought into the trial, is this a violation of due process rights of the Petitioner Mr.
Stanaland.

2

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[ X ] All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition as follows:

RELATED CASES
1. Name and location of court that entered the judgment of conviction, that I am challenging: Seventh
Judicial Circuit, St. Johns County, Florida Case No.: 2008-002193-CFMA.

2. Direct Appeal: Fifth District Court of Appeals, Daytona Beach, Florida Case No.: 5D11-2322
3. Seventh Judicial Circuit, St. Johns County, Florida 2008-002193-CFMA. Rule 3.800(c)
mitigation/modification Motion.
4. Rule 3.850 post-conviction motion, same as above, court.
5. Appealed to the Fifth District Court of Appeal, Daytona Beach, Florida Case No.: 5D16-5.

3

TABLE OF CONTENTS
PAGEfSl
OPINIONS BELOW.

1

JURISDICTION

7

CONSTITUTION AND STATUTORY PROVISIONS INVOLVED

8

STATEMENT OF THE CASE

10

REASONS FOR GRANTING THE PETITION

12

CONCLUSION

13
INDEX TO APPENDICES

Appendix A- Exhibit “A” Affidavit
Appendix B- Exhibit “B” Affidavit
Appendix C- Exhibit “C” Affidavit
Appendix D- U.S. Supreme Court-Time Extension
Appendix E- Court order 150 days from date of the order denying a timely petition for rehearing.
Appendix F- U.S. Supreme Court of Appeals, for the Eleventh Circuit
Appendix G- Trial Transcript
Appendix H- Eleventh Circuit Opinion dated 7-7-20
Appendix I- U.S. District Court Middle District of Florida order dated 1-24-20

4

TABLE OF AUTHORITIES CITED
CASES

PAGEfSl

U.S. v. Bryant, 769 F. 3d 671 (9th Cir. 2014).................................................................................
Kyles v. Whitley, 514 U.S. 419, 435,115......................................................................................
Cone v. Bell, U.S. Supreme Court 2020 cited 556 U.S. 449 December 9, 2008..........................
Legal Standard set forth in Kyles {556 U.S. 477 v. Whitley, 514 U.S. 419, 435,
115 S. Ct. 1555,131 L. Ed. 2d 490 (1995 But see e.g., Kyles, 514 U.S. at 454 cumulative value
of undisclosed evidence, See: Bagley, 473 U.S. at 676, exculpatory evidence subject to Brady
disclosure.
STATUTES AND RULE(S!
3.6 (f) Justifiable use of deadly force.
Mercury Rule Evidence: The principle that a defendant is entitled to offer character
evidence as a defense to a criminal charge. Fed R, Evid. 404(aVTT..

Other Petitioner has [No] prior felony convictions.

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ X ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
petition and is

to the

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
The petition and is

to

[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ X ] For case from state courts:

The opinion of the highest state court to review the merits appears at
Appendix______to the petition and is.
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

6

JURISDICTION
[ X ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was filed January 27,
2020.
[ ] No petition for rehearing was timely filed in my case.
[ X ] A timely petition for hearing was denied by the United States Court of Appeals on the
following date: August 26, 2020, and a copy of the order denying rehearing
appears at Appendix______ .
[ X ] An extension of time to file the petition for a writ of certiorari was granted to and
including 150 days on March 19, 2020 in Application No.
A
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
[ X ] For cases from state courts:

The date on which the highest state court decided my case was Fifth DCA, June 5, 2017:
Mandate from DCA Fifth District 7-25-17.
A copy of that decision appears at Appendix_________ .
[X] A timely petition for rehearing was thereafter denied on the following date:
August 2017, and a copy of the order denying rehearing appears at
Appendix .___ .

[ ] An extension of time to file the petition for a writ of certiorari was granted to and including
____________(date) on__________________ _(date) in Application No.___ A
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
UNITED STATES SUPREME COURT 2020
554 U.S. 570: District of Columbia v. Heller: March 18,2008 dissent.
The Second Amendment protects a “collective right” or an “individual right.” Surely it protects
a right that can be enforced by individuals.
But a conclusion that the Second Amendment protects an individual right does not tell us
anything about the scope of that right.
Guns are used to hunt, for self-defense, to commit crimes, for sporting activities, and to
perform military duties.
The Second Amendment plainly does not protect the right to use a gun to rob a bank; it is
equally clear that ti does encompass the right to use weapons for certain military purposes.
Whether it also protects the right to possess and use guns for nonmilitary purposes like hunting
and personal self-defense 554 U.S. 63 7 is the question presented by this case; as in Stanalandrs case
206 oases ofthe
Interview by Cris Wensil that was suppressed bv stipulation. Invoked Miranda right to
attorney.....supported self-defense Stanaland had a legal right to own and possess a firearm.
The text of the Amendment, its history, and our decision in United States v. Miller, 307 U.S.
174, 59 S. Ct. 816, 83 L. Ed. 1206, 1939-1 C.B. 373 (1939), provides a clear answer to that question.

8

OUESTION(S) PRESENTED
6.) Should a lower trial court’s decision be reversed due to a Brady/Discovery violation when an
officer of the law a government agent made a statement tot a witness that has written an affidavit
regarding; * Withheld form the defense in the trial Newly Discovered Evidence that someone did
society a favor when the shot the victim in this case “sub judice. ”
* By taking another drug dealer off the streets ofSt Augustine, Florida,
7.)Does this case apply to Mr, Stanaland’s? The following cases? U.S. Supreme Court, 2020 556
U,S, 449: Cone v. Bell: December 9, 2008 concur- The unique procedural
Posture of this case represents a Brady claim neither barred under state rules for failure to
raise it nor decide in the state system. When it comes to that claim, the court specifies that the
appropriate legal standard is the one we setforth in Kyles,
{556 U.S. 447 v. Whitley, 514 U.S. 419; See: Bagley, 473 U.S. at 676. Exculpatory evidence subject to
Brady disclosure
(1) Contrary to the incorrect standard for materiality that the Court ofAppeals may have used, the
State’s disclosure obligation turns on the cumulative effect of all such suppressed evidence; and (2)
a prosecutor remains responsible for gauging that effect regardless of any failure by the police to
bringfavorable evidence to the prosecutor’s attention.
8.) In. Id. Mr. Stanaland’s case at hand, the importance of the legal issue’s presented, maybe merits
review on certiorari by the Honorable Supreme Court of the United States ofAmerica?

9

STATEMENT OF THE CASE
* (Key) The record pages will be referred as (T.T.) ( R. ) Trial Transcript.
* Mr. Stanaland's interview with Detective Cris Wensil, that was suppressed evidence of self-defense
was suppressed through stipulation by Attorney Micheal Nielsen. Because Mr. Stanaland had invoked
his Miranda rights and asked for an attorney early in this interview supra.
* However, this valuable direct evidence of self-defense would have supported Mr. Stanaland's
defense of self-defense * exculpatory evidence attorney Nielsen left out of the trial.
(Key) These testimony pages will be referred to a (T.)
* Mr. Stanaland's version of the events leading up to the death of Jesse “PeeWee” Whitley;
(R.) T.T. 651 “Becky” Stanaland's fiancee was raped and beaten by PeeWee. Becky had a black-eye,
swollen face and a busted lip from the beating. (T. 58-59, 65, 69, 71, 90,128-129). Motive for Becky to
shoot Jesse Whitley.
* Mr. Whitley came over with a stereo in the work truck he had borrowed from Stanaland and set up
the stereo. He also brought a gun, a .357 magnum with a Western holster, and both were brought as
payment towards the truck;
(T. 70-71,109, 125, 147-148).
* Stanaland also believed that PeeWee felt bad about raping Becky. (T. 109-125,147-148).
* Stanaland and PeeWee then go out onto the front porch where Stanaland confronts PeeWee about the
rape of Becky. (T. 63, 66, 72-73, 110, 148).
(R.) (T.T. 641, 650) During the time Becky grabbed PeeWee's .357 magnum off the bar in the kitchen
and makes her way out to where PeeWee and Stanaland are standing on the porch and points the gun at
PeeWee. Becky is visibly upset, angry and shaking. (R.) (T.T. 443-578, 628) Becky then shoots PeeWee
in the back. (T. 33, 74-77, 109, 121, 128, 145, 152-156, 160).

10

(R.) (T.T. 630-636) PeeWee Whitley then falls off porch pull's his pistol from the small of his back and
fires back at Becky and Stanaland. (T. 79, 81, 121-122, 158,163, 200) (R.) (T.T. 284, 300, 305, 291,
299).
T, 163 Jesse “PeeWee” Whitley had a gun, He pointed it at her (Becky) and he pointed it at me Steve
Stanaland. * We (Becky and I) were on my property and residence where we both lived at, and both in
fear of our lives.

11

REASONS FOR GRANTING THE PFTTTTON
* In the interest ofjustice and the citizens of this country's public interest, otherwise this would
undermine the integrity of the citizens confidence in the courts. Also, this could effect people across the
nations firearms cases.
* In addition, because this is a miscarriage ofjustice. And a grossly unfair outcome in a judicial
proceeding, as when a defendant is convicted despite of a lack of physical evidence and a lack of
evidence on an essential element of the crime.
*

Specifically, when the death-penalty is on the table, against the defendant.

* In conclusion, the argument by the Petitioner's is made out of constitutional, fundamental
fairness, and Mr. Stanaland's due process rights.

12

CONCLUSION
Review should be granted to answer these questions that determine whether self-representation
is more than an empty ritual.
Respectfully Submitted.

W/'CJc
Steve L .Stanaland, Jr.
D.C. #593240

13

